      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




September 21, 2011

TO:           Francis S. Collins, M.D., Ph.D.
              Director
              National Institutes of Health


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Appropriations Funding for National Institute of Allergy and Infectious Diseases
              Contract HHSN266-2006-00015C With NexBio, Inc. (A-03-10-03119)


The attached final report provides the results of our review of appropriations funding for
National Institute of Allergy and Infectious Diseases contract HHSN266-2006-00015C with
NexBio, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-03-10-03119 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  APPROPRIATIONS FUNDING FOR
     NATIONAL INSTITUTE OF
ALLERGY AND INFECTIOUS DISEASES
CONTRACT HHSN266-2006-00015C
      WITH NEXBIO, INC.




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-03-10-03119
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). Federal statutes also limit the time during which an appropriation is available. A
fiscal year appropriation may be obligated only to meet a legitimate, or bona fide, need arising
in, or in some cases arising prior to but continuing to exist in, the appropriation’s period of
availability (31 U.S.C. § 1502). Congress determines the amount of funding available to an
agency for the purchase of goods and services by enacting appropriations. The Antideficiency
Act prohibits an agency from obligating or expending those funds in advance of or in excess of
an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency must fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though
performance may extend into subsequent fiscal years.

On September 29, 2006, NIAID awarded contract HHSN266-2006-00015C (the Contract),
totaling $49.8 million, to NexBio, Inc. (NexBio), in San Diego, California. The Contract
requires NexBio to develop Fludase as a broad-spectrum therapeutic agent against influenza. We
determined that the Contract is a nonseverable service contract because it represents a single
undertaking and provides for a single outcome (to perform clinical testing and development of an
antiviral influenza drug) at the conclusion of the 5-year contract.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or



                                                 i
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NIAID funded only
$19.8 million of the $49.8 million contract obligation with fiscal year 2006 appropriations.
NIAID obligated a total of $20.0 million in violation of the bona fide needs rule: $10.0 million
of fiscal year 2007 appropriated funds and $10.0 million of fiscal year 2009 appropriated funds,
and it planned to obligate funds appropriated for future years as well. Because the Contract was
for nonseverable services, NIAID was required to record the full amount of the Contract using
fiscal year 2006 appropriated funds. By not recording the full obligation using fiscal year 2006
appropriations, NIAID potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NIAID will need to deobligate the fiscal years
2007 and 2009 appropriations and any future-year appropriations obligated after our review. To
remedy the potential Antideficiency Act violation, NIAID will need to record an obligation of
$30.0 million ($49.8 million less $19.8 million) using fiscal year 2006 appropriations. If NIAID
does not have $30.0 million of fiscal year 2006 appropriations available, it will violate the
Antideficiency Act.

RECOMMENDATIONS

We recommend that NIAID:

   •   deobligate $10.0 million of fiscal year 2007 funds,

   •   deobligate $10.0 million of fiscal year 2009 funds,

   •   record the remaining $30.0 million of the $49.8 million contract obligation against fiscal
       year 2006 funds, and

   •   report an Antideficiency Act violation if fiscal year 2006 funds are not available.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings that the Contract is
nonseverable and that it should have been funded at the time the Contract was awarded. NIH
said that HHS would report the violation as required by 31 U.S.C. § 1351.



                                                ii
NIH did not address our recommendations to correct the improper funding for the first 4 years of
the Contract. Until NIH makes these adjustments, HHS cannot report the correct amount of its
Antideficiency Act violation. Therefore, we continue to recommend that NIH record the
remaining $30.0 million Contract obligation against fiscal year 2006 funds and deobligate funds
appropriated for other years.

We have modified our recommendations to identify the funding adjustments necessary by fiscal
year. NIH’s comments are included in their entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS


                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Federal Appropriations Statutes ............................................................................ 1
              National Institute of Allergy and Infectious Diseases Contract Award ................2
              Departmental Review of National Institutes of Health Contracts ........................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ...............................................................................................................2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FUNDING VIOLATIONS ............................................................................................... 3
               Bona Fide Needs Rule Violation .......................................................................... 3
               Potential Antideficiency Act Violation................................................................. 4

          CAUSES OF FUNDING VIOLATIONS ......................................................................... 4

          RECOMMENDATIONS .................................................................................................. 5

          NATIONAL INSTITUTES OF HEALTH COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ................................................. 5

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

The National Institute of Allergy and Infectious Diseases (NIAID) is 1 of 27 institutes and
centers of the National Institutes of Health (NIH), an agency of the Department of Health
and Human Services (HHS). The NIH Office of the Director sets policy and plans, manages, and
coordinates NIH-wide programs and activities. Like all Federal agencies, NIAID is required to
comply with appropriations statutes when acquiring supplies and services with appropriated
funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation is made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with separate subsequent fiscal year appropriations. A contract for a single outcome or effort is
chargeable to the fiscal year in which it is awarded, even though its performance may extend into
subsequent fiscal years. The Comptroller General has explicitly held that incremental funding
(i.e., other than full funding) of nonseverable service contracts violates the bona fide needs rule
(71 Comp. Gen. 428 (1992)).

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
The Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, pt. 4, § 145, prescribes the methodology for this reporting.

National Institute of Allergy and Infectious Diseases Contract Award

On September 29, 2006, NIAID awarded contract HHSN266-2006-00015C (the Contract),
totaling $49.8 million, to NexBio, Inc. (NexBio), in San Diego, California. The Contract
requires NexBio to develop Fludase 3 as a broad-spectrum therapeutic agent against influenza.
We determined that the Contract is a nonseverable service contract because it represents a single
undertaking and provides for a single outcome (to perform clinical testing and development of an
antiviral influenza drug) at the conclusion of the 5-year contract.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law. 4 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIAID funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2006
through 2009. We did not review NIAID’s internal controls because our objective did not
require such a review.

We performed our fieldwork at NIAID in Bethesda, Maryland.




3
    Fludase is an experimental antiviral drug for influenza.
4
    Funding Multiple Year Contracts; Tiger Team Summary Report, July 29, 2009.


                                                               2
Methodology

To accomplish our objective, we:

   •   reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •   reviewed the Tiger Team report;

   •   reviewed contract file documentation, including the statement of work, to determine the
       nature of the products or services to be provided; and

   •   analyzed funding documents and payment invoices to determine what appropriations
       were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

NIAID funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NIAID did not comply with the time requirements and may not have
complied with the amount requirements specified in the statutes. NIAID funded only
$19.8 million of the $49.8 million contract obligation with fiscal year 2006 appropriations.
NIAID obligated a total of $20.0 million in violation of the bona fide needs rule: $10.0 million
of fiscal year 2007 appropriated funds and $10.0 million of fiscal year 2009 appropriated funds.
It planned to obligate funds appropriated for future years as well. Because the Contract was for
nonseverable services, NIAID was required to record the full amount of the Contract using fiscal
year 2006 appropriated funds. By not recording the full obligation using fiscal year 2006
appropriations, NIAID potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NIAID will need to deobligate the fiscal years
2007 and 2009 appropriations and any future-year appropriations obligated after our review. To
remedy the potential Antideficiency Act violation, NIAID will need to record an obligation of
$30.0 million ($49.8 million less $19.8 million) using fiscal year 2006 appropriations. If NIAID
does not have $30.0 million of fiscal year 2006 appropriations available, it will violate the
Antideficiency Act.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violation

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal


                                                 3
year, depending on the nature of the services involved. A contract for nonseverable services
must reflect a bona fide need identified in the fiscal year in which the agency awards the
contract, although the contract’s performance may extend into subsequent fiscal years. Agencies
must fully fund nonseverable service contracts by obligating funds representing the entire
amount of the contract from appropriations available during the fiscal year in which the agency
awards the contract.

In fiscal year 2006, NIAID awarded the 5-year nonseverable service Contract and incurred an
obligation totaling $49.8 million based on an existing bona fide need. However, NIAID
recorded only $19.8 million of the obligation with fiscal year 2006 appropriations.
Subsequently, NIAID improperly recorded obligations totaling $20.0 million: $10.0 million
using fiscal year 2007 funds and $10.0 million using fiscal year 2009 funds. However, NIAID
did not have a bona fide need in fiscal years 2007 and 2009. To remedy the violation, NIAID
will need to deobligate the $10.0 million fiscal year 2007 appropriation, the $10.0 million fiscal
year 2009 appropriation, and any future-year appropriations obligated after our review.

Potential Antideficiency Act Violation

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, Preparation, Submission and Execution of the
Budget, pt. 4, § 145, prescribes the methodology for this reporting.

NIAID should have recorded the full fiscal year 2006 obligation for $49.8 million at the time of
the award of the Contract. Instead, NIAID recorded only $19.8 million of the obligation with
fiscal year 2006 appropriations. To remedy the potential Antideficiency Act violation, NIAID
will need to record an obligation of $30.0 million ($49.8 million less $19.8 million) using fiscal
year 2006 appropriations. If NIAID does not have $30.0 million of fiscal year 2006
appropriations available, it will violate the Antideficiency Act.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

   •   widespread misunderstanding of appropriations laws because of conflicting HHSAR
       guidance over the past 25 years;

   •   the use of incremental funding in ways that were not consistent with the current HHSAR
       and appropriations law; and

   •   the need for additional training and a broader understanding of appropriations law among
       acquisition, budget, and program staff.




                                                 4
The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued it on December 20, 2006, approximately 3 months after NIAID awarded the Contract.

RECOMMENDATIONS

We recommend that NIAID:

   •   deobligate $10.0 million of fiscal year 2007 funds,

   •   deobligate $10.0 million of fiscal year 2009 funds,

   •   record the remaining $30.0 million of the $49.8 million contract obligation against fiscal
       year 2006 funds, and

   •   report an Antideficiency Act violation if fiscal year 2006 funds are not available.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with the findings that the Contract is
nonseverable and that it should have been funded at the time it was awarded. NIH said that HHS
would report the violation as required by 31 U.S.C. § 1351.

NIH did not address our recommendations to correct the improper funding for the first 4 years of
the Contract. Until NIH makes these adjustments, HHS cannot report the correct amount of its
Antideficiency Act violation. Therefore, we continue to recommend that NIH record the
remaining $30.0 million Contract obligation against fiscal year 2006 funds and deobligate funds
appropriated for other years.

We have modified our recommendations to identify the funding adjustments necessary by fiscal
year. NIH’s comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                                                                                                 Page 1 of 2
                              NATIONAL INSTITUTES OF HEALTH COMMENTS



...-""''''''°6
(~
\::1­             DEPARTMENT OF HEALTH &. HUMAN SERVICES                                     Public Health Service


                                                                                             National Institutes of Health 

                                                                                             Bethesda, Maryland 20892 





                        '.ruN 1 7 2011

            TO:            Daniel R. Levinson
                           Inspector .Generai, HHS

            FROM:          Director, N:ational Institutes of Health

            SUBJECT:      Resp<?nse to Office of Inspector General Draft Report, Appropriations Funding
                          for National Institute ofAllergy and Infectious Diseases Contract HHSN266­
                          2006-00015C With NexBio, Inc. (A-03-10-031 19)


           Attached are the National Institutes of Health's revised comments on the Office of Inspector
           General's draft report entitled, 4ppropriations Fundingfor National Institute ofAllergy and
           Infectious Diseases Contract HHSN266-2006-00015C With NexBio, Inc. (A-03-10-03119).

           We appreciate the opportunity to review and comment on this important topic. We have
           provided general comments that address the findings and recommendations in the draft report.
           Should you have questions or concerns regarding our comments, please contact Meredith Stein
           in the Office of Management Assessment at 301-402-8482.          .



                                                         ~y'U=:>-
                                                          Francis S.· Collins, M.D., Ph.D.

           Attachment
                                                                                                  Page 2 of 2



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED,
APPROPRIATIONS FUNDING FOR NATIONAL INSTITUTE OF ALLERGY AND
INFECTIOUS DISEASES CONTRACT HHSN266-2006-00015C WITH NEXBIO. INC.
(A-03-10-03U9)


The National Institutes of Health (NIH) appreciates the review conducted by the Office of the
Inspector General (OIG) and the opportunity to provide clarifications on this draft report. NIH
respectfully submits the following comments:

Summary of OIG Findings:

   • 	 The National Institute of Allergy and Infectious Diseases (NIAID) did not comply with 

       the time requirements and may not have complied with the amount requirements 

       specified in the statutes. NIAID funded only $19.8 million of the $49.8 million contract 

       obligation with fiscal year 2006 appropriations. NIAID obligated a total of $20 million 

       in violation of the bona fide needs rule: $10 million of fiscal year 2007 appropriated 

       funds and $10 million of fiscal year 2009 appropriated funds, and it planned to obligate 

       funds appropriated for future years as well. 


   • 	 Because the contract was for nonseverable services, NIAID was required to record the 

       full amount of the contract using fiscal year 2006 appropriated funds. 


Summary of OIG Recommendations:

   • 	 NIAID should record the remaining $30 million of the $49.8 million contract obligation 

       against fiscal year 2006 funds and deobligate funds appropriated for years other than 

       fiscal year 2006. 


   • 	 NIAID must report an Antideficiency Act violation if fiscal year 2006 funds are not 

       available. 


NIH Comments:

   The NIH concurs that NIAID Contract HHSN266-2006-000 15C is a nonseverable services 

   contract and that under Federal appropriations law the contract should have been funded 

   from the fiscal year current at the time the contract was awarded. The NIH concurs with 

   OIG's findings as summarized above. Accordingly, NIH understands that the Department of 

   Health and Human Services (HHS) will report the violation as required by 31 U.S.c. § 1351. 

   NIH further understands that the HHS report will identify the proposed actions taken to 

   correct the systemic problems within HHS which led to this and other violations. 

